<html>
<title> - DYSLEXIA AND THE NEED TO READ: H.R. 3033, THE RESEARCH EXCELLENCE AND ADVANCEMENTS FOR DYSLEXIA ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     DYSLEXIA AND THE NEED TO READ:
                   H.R. 3033, THE RESEARCH EXCELLENCE
                   AND ADVANCEMENTS FOR DYSLEXIA ACT

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 30, 2015

                               __________

                           Serial No. 114-41

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-760PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LAHOOD, Illinois



















                            C O N T E N T S

                           September 30, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    11
    Written Statement............................................    12

                               Witnesses:

Ms. Barbara Wilson, Co-Founder and President, Wilson Language 
  Training
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Paula Tallal, Senior Research Scientist, Center for Human 
  Development, University of California, San Diego; Adjunct 
  Professor, Salk Institute for Biological Studies; Founder and 
  Director, Scientific Learning Corporation
    Oral Statement...............................................    24
    Written Statement............................................    27

Dr. Rachel Robillard, Assistant Director, 504 Services and 
  Response to Intervention, Austin Independent School District
    Oral Statement...............................................    42
    Written Statement............................................    44

Discussion.......................................................    56

             Appendix I: Additional Material for the Record

Letter submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    74

Documents submitted by Ms. Barbara Wilson, Co-Founder and 
  President, Wilson Language Training............................    76

Slides submitted by Dr. Paula Tallal, Senior Research Scientist, 
  Center for Human Development, University of California, San 
  Diego; Adjunct Professor, Salk Institute for Biological 
  Studies; Founder and Director, Scientific Learning Corporation.   111

Document submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   154

Prepared statement submitted by Representative Elizabeth H. Esty, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   157
 
                     DYSLEXIA AND THE NEED TO READ:
                   H.R. 3033, THE RESEARCH EXCELLENCE
                   AND ADVANCEMENTS FOR DYSLEXIA ACT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.




    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing, ``Dyslexia and the Need to 
READ: H.R. 3033, the Research Excellence and Advancements for 
Dyslexia Act.''
    Let me say we welcome everyone here today but particularly 
those who are under 18, and it's nice to see them represented 
in the audience.
    I'm going to recognize myself for an opening statement, and 
then the Ranking Member.
    Today's hearing is on H.R. 3033, the Research Excellence 
and Advancements for Dyslexia, or READ, Act, and the need to 
prioritize investments in dyslexia research conducted by the 
National Science Foundation.
    I want to thank the many co-sponsors of the READ Act, 
especially former Science Committee Member, Representative 
Julia Brownley. We co-chair the bipartisan Congressional 
Dyslexia Caucus. The caucus now has more than 100 Members of 
Congress. Together, we champion an increased public awareness 
of dyslexia, which affects an estimated 8.5 million 
schoolchildren and one in six Americans in some form.
    Despite this huge number, many Americans remain 
undiagnosed, untreated and silently struggle at school or work. 
Too many children undiagnosed with dyslexia have difficulties 
in the classroom and sometimes drop out of school and face 
uncertain futures.
    In a hearing last year on the science of dyslexia--one of 
the best-attended hearings of this Committee--experts testified 
how research in the area of neuroscience has led to practical 
ways of overcoming dyslexia and why more research was 
necessary. Parents and teachers both must receive training in 
how to identify and test students for dyslexia. And the 
development of special curricula and educational tools can 
better enable students to read at their fullest potential.
    The expert witnesses at our hearing were clear, Dyslexia is 
the most common reading disability, yet those who suffer from 
it often have normal or above-average intelligence. There is no 
proven correlation between dyslexia and intelligence. Albert 
Einstein had dyslexia, and Leonardo da Vinci, Galileo, Nicholas 
Tesla, Thomas Edison and Steve Jobs are a few of the most 
recognized, brilliant innovators and inventors who overcame 
dyslexia.
    With more research, greater awareness of how to identify 
dyslexic students, better curricula and more resources in the 
hands of parents, teachers and students, we can develop the 
potential of many of those students who might become the next 
Einstein. But if you can't read, it's hard to achieve.
    The READ Act is a step in the right direction to help those 
with dyslexia. The bill ensures that our children have the 
means to succeed.
    The READ Act requires the National Science Foundation 
budget to include a specific line item for the Research in 
Disabilities Education program. The bill authorizes at least $5 
million annually for merit-reviewed, competitively awarded 
dyslexia research projects. It uses funds already appropriated 
for the NSF Research and Related Activities account or the 
Education and Human Resources Directorate for those projects. 
It does not increase overall federal spending at the NSF.
    The READ Act supports the practical research our expert 
witnesses said is most needed: early identification, 
professional training for teachers and administrators about 
dyslexia, and evidence-based educational tools and curricula. 
This is well within the scope of NSF's current science, 
technology, engineering, and mathematics education programs.
    Our witnesses today have personal experiences with this 
issue. They routinely help students with dyslexia in the 
classroom and identify students who can benefit from additional 
instruction tailored for their unique situation. They develop 
practical curricula to help children and adults with dyslexia. 
And some are parents of dyslexic students who want to make a 
difference not only in their children's lives but also in the 
lives of others.
    And we'll put something up on the big screen right now. 
October is Dyslexia Awareness Month. One year ago, in 
conjunction with our Science of Dyslexia hearing, the Web site 
Understood.org was launched. This Web site provides some tests 
for dyslexia and other resources. Since Understood.org went 
live, over six million people have visited the Web site and it 
now attracts about one million different visitors each month.
    After today's hearing, I would like to welcome Members of 
the Committee to a reception in room 2325 down the hall being 
hosted by the National Center for Learning Disabilities along 
with the International Dyslexia Association, Decoding Dyslexia, 
the Learning Disabilities Association of America, Dyslexia 
Advantage, and Learning Ally. By the way, I said just Members 
of the Committee, I mean everybody in this room is welcome to 
that reception down the hall in that direction.
    For many people, dyslexia is considered a disability. But 
if we change the way we approach this subject, we can turn that 
disability into an opportunity for a brighter and more 
productive future.
    [The prepared statement of Chairman Smith follows:]

        Prepared Statement of Committee Chairman Lamar S. Smith

    Welcome to today's hearing on H.R. 3033, the Research Excellence 
and Advancements for Dyslexia or READ Act, and the need to prioritize 
investments in dyslexia research conducted by the National Science 
Foundation (NSF).
    I thank the many co-sponsors of the READ Act, especially former 
Science Committee Member, Representative Julia Brownley. We co-chair 
the bipartisan Congressional Dyslexia Caucus.
    The caucus now has more than 100 Members of Congress. Together, we 
champion an increased public awareness of dyslexia, which affects an 
estimated 8.5 million school children and one in six Americans in some 
form.
    Despite this huge number, many Americans remain undiagnosed, 
untreated and silently struggle at school or work. Too many children 
undiagnosed with dyslexia have difficulties in the classroom and 
sometimes drop out of school and face uncertain futures.
    In a hearing last year on the science of dyslexia--one of the best-
attended hearings of this Committee--experts testified how research in 
the area of neuroscience has led to practical ways of overcoming 
dyslexia and why more research was necessary.
    Parents and teachers both must receive training in how to identify 
and test students for dyslexia. And the development of special 
curricula and educational tools can better enable students to read at 
their fullest potential.
    The expert scientists at our hearing were clear: Dyslexia is the 
most common reading disability yet those who suffer from it often have 
normal or above-average intelligence. There is no proven correlation 
between dyslexia and intelligence.
    Albert Einstein had dyslexia. And Leonardo da Vinci, Galileo, 
Nicholas Tesla, Thomas Edison and Steve Jobs are a few of the most 
recognized, brilliant innovators and inventors who overcame dyslexia.
    With more research, greater awareness of how to identify dyslexic 
students, better curricula and more resources in the hands of parents, 
teachers, and students, we can develop the potential of many of those 
students who might become the next Einstein.
    But if you can't read, it is hard to achieve. The READ Act is a 
step in the right direction to help those with dyslexia. The bill 
ensures that our children have the means to succeed.
    The READ Act requires the National Science Foundation's (NSF) 
budget to include a specific line item for the Research in Disabilities 
Education program. The bill authorizes at least five million dollars 
annually for merit-reviewed, competitively awarded dyslexia research 
projects.
    It uses funds already appropriated for the NSF Research and Related 
Activities account or the Education and Human Resources Directorate for 
these projects. It does not increase overall federal spending at the 
NSF.
    The READ Act supports the practical research our expert witnesses 
said is most needed: early identification, professional training for 
teachers and administrators about dyslexia, and evidence-based 
educational tools and curricula. This is well within the scope of NSF's 
current science, technology, engineering, and mathematics (STEM) 
education programs.
    Our witnesses today have personal experiences with this issue. They 
routinely help students with dyslexia in the classroom and identify 
students who can benefit from additional instruction tailored for their 
unique situation.
    They develop practical curricula to help children and adults with 
dyslexia. And some are parents of dyslexic students who want to make a 
difference not only in their children's lives but also in the lives of 
others.
    October is Dyslexia Awareness Month. One year ago--in conjunction 
with our Science of Dyslexia hearing--the website Understood.org was 
launched. This website provides some tests for dyslexia and other 
resources.
    Since Understood.org went live, over six million people have 
visited the website and it now attracts about one million different 
visitors each month.
    After today's hearing, I would like to welcome members of the 
Committee to a reception in room 2325 down the hall being hosted by the 
National Center for Learning Disabilities along with the International 
Dyslexia Association, Decoding Dyslexia, the Learning Disabilities 
Association of America, Dyslexia Advantage, and Learning Ally.
    For many people, dyslexia is considered a disability. But if we 
change the way we approach this subject, we can turn that disability 
into an opportunity for a brighter and more productive future.

    [The bill follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening remarks, and the 
Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and good morning. I appreciate that you are holding this 
hearing. I want to thank all of our witnesses for being here 
today, and I look forward to hearing your testimony.
    I have known several people who have dyslexia. Although 
dyslexia is a lifelong condition, if someone gets proper 
diagnosis and instructions, they can succeed in school and go 
on to have successful careers. I would not be surprised if we 
didn't have some examples in this room today. I know some very 
personally who are very successful.
    The Science, Space, and Technology Committee oversees most 
of the federal nondefense R&D, but we do not directly oversee 
the lead agency for dyslexia research, which is NIH. Moreover, 
we do not oversee the Department of Education, which supports 
educational programs and provides services for students with 
learning disabilities, including dyslexia. However, we do 
oversee the National Science Foundation, which supports 
fundamental research that provides a foundation for dyslexia 
research as well as educational research. Although several of 
the directorates at NSF fund research that contributes to the 
science of dyslexia, the majority of the NSF-funded research 
relating to dyslexia is supported by the Social, Behavioral, 
and Economic Sciences Directorate, and the Education and Human 
Resources Directorate--two important NSF Directorates. For 
example, the Social, Behavioral, and Economic Sciences 
Directorate funded the Science of Learning Centers program, 
which supported six large-scale, long-term, interdisciplinary 
centers that have made significant contributions to learning 
research.
    I look forward to hearing from Dr. Tallal about the 
Temporal Dynamics of Learning Center of which she is a co-
Director. This Center focuses on understanding the role that 
timing plays in learning and applying that research to 
improving educational tools and practices. Since processing 
language is one of the fastest things that we do, it is clear 
that timing plays a critical role in understanding speech and 
language. While the Centers program is not awarding new grants, 
SBE continues to be a leader in funding the science of learning 
research.
    Today we are going to talk about H.R. 3033, the Research 
Excellence and Advancements for Dyslexia, or the READ Act. This 
bill would require NSF to have a line item for the Research in 
Disabilities Education program in NSF's Education Directorate 
and to fund at least $5 million a year on dyslexia research. 
The research would be on the science of dyslexia, including the 
early identification of individuals with dyslexia, professional 
development for teachers and school administrators, and 
curricula development and educational tools. I fully support 
funding more research in language-based learning disabilities, 
including dyslexia.
    But I do have to point out that this bill does not provide 
NSF with additional money to fund that research. Rather, it 
requires NSF to use existing funding. Although I support more 
funding for dyslexia research, in the current environment of 
flat research budgets, I would have liked to see additional 
money provided for the priority in the bill.
    But with that said, I do support the goals and intentions 
of the legislation, and I want to thank our witnesses for being 
here today. I look forward to the testimony, and I thank you, 
Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

             Prepared Statement of Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman, for holding this hearing. I want to thank 
the witnesses for being here today. I look forward to hearing your 
testimony.
    I have known several people who have dyslexia. Although dyslexia is 
a lifelong condition, if someone gets proper diagnosis and instruction, 
they can succeed in schools and go on to have successful careers. I 
would not be surprised if we have some examples of that in the room 
today. The Science, Space, and Technology Committee oversees most of 
the federal nondefense R&D, but we do not directly oversee the lead 
agency for dyslexia research, which is NIH.
    Moreover, we do not oversee the Department of Education, which 
supports educational programs and provides services for students with 
learning disabilities, including dyslexia.
    However, we do oversee the National Science Foundation, which 
supports fundamental research that provides a foundation for dyslexia 
research as well as educational research.
    Although several of the Directorates at NSF fund research that 
contributes to the science of dyslexia, the majority of the NSF-funded 
research relating to dyslexia is supported by the Social, Behavioral, 
and Economic Sciences Directorate and the Education and Human Resources 
Directorate-two important NSF Directorates.
    For example, the Social, Behavioral, and Economic Sciences 
Directorate funded the Science of Learning Centers Program, which 
supported six large-scale, long-term, interdisciplinary centers that 
have made significant contributions to learning research.
    I look forward to hearing from Dr. Tallal about the Temporal 
Dynamics of Learning Center of which she is a co-Director. This Center 
focuses on understanding the role that timing plays in learning and 
applying that research to improving educational tools and practices. 
Since processing language is one of the fastest things we do, it is 
clear that timing plays a critical role in understanding speech and 
language. While the Centers program is not awarding new grants, SBE 
continues to be a leader in funding the science of learning research.
    Today we are going to talk about H.R. 3033, the Research Excellence 
and Advancements for Dyslexia or the READ Act.
    This bill would require NSF to have a line item for the Research in 
Disabilities Education program in NSF's Education Directorate and to 
fund at least $5 million dollars a year on dyslexia research. The 
research would be on the science of dyslexia, including the early 
identification of individuals with dyslexia, professional development 
for teachers and school administrators, and curricula development and 
educational tools.
    I fully support funding more research in language-based learning 
disabilities, including dyslexia. But I do have to point out that this 
bill does not provide NSF with additional money to fund that research. 
Rather, it requires NSF to use existing funding.
    Although I support more funding for dyslexia research, in the 
current environment of flat research budgets, I would have liked to see 
additional money provided for this priority in the bill.
    But with that said, I do support the goals and intentions of this 
legislation.
    I want to thank the witnesses for being here today. I look forward 
to your testimony and the Q&A.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Chairman Smith. Thank you, Mrs. Johnson.
    Before I welcome our witnesses, I want to note that 
unfortunately Geraldine Tincy Miller from the Texas State Board 
of Education is not able to testify today due to a death in her 
family late last week. Ms. Miller shepherded bills through the 
Texas State Legislature to help students with dyslexia and has 
been an advocate on the issue for many decades.
    Without objection, I would like to include in the hearing 
record the history of dyslexia law that Ms. Miller wrote and 
provided to the Committee.
    [The information appears in Appendix ]
    Chairman Smith. I would also like to include in the hearing 
record a letter we received yesterday from Dr. Sally Shaywitz 
of the Yale Center for Dyslexia and Creativity. Dr. Shaywitz 
testified last year before the Science Committee. Her letter 
states, in part, ``The READ Act will help to put knowledge into 
the science of dyslexia and to action more quickly. Everyone 
who is a parent, teacher or researcher working with a dyslexic 
child should support H.R. 3033, the READ Act.'' And without 
objection, that'll be made a part of the record as well.
    [The information appears in Appendix I]
    Chairman Smith. Let me go to our witnesses.
    Our first witness, Ms. Barbara Wilson, is the Co-founder 
and President of Wilson Language Training, which provides 
professional support to American educators. Ms. Wilson oversees 
graduate and clinical courses to help students with language-
based learning disabilities. She has over 30 years of 
experience in working with people with dyslexia. Ms. Wilson 
received her bachelor's degree from Fitchburg State University 
and her master's in education from Simmons College in 
Massachusetts.
    Our next witness, Dr. Paula Tallal, is the Senior Research 
Scientist at the Center for Human Development at the University 
of California San Diego. She also serves as an Adjunct 
Professor at the Salk Institute for Biological Studies and is 
the Founder and Director of the Scientific Learning 
Corporation. Dr. Tallal is a Cognitive Neuroscientist and 
board-certified Clinical Psychologist who has authored over 200 
professional publications and holds several patents. Dr. Tallal 
received her bachelor's degree from New York University and her 
Ph.D. from Cambridge University.
    Dr. Rachel Robillard, our final witness, is an Assistant 
Director in the Austin Independent School District where she 
helps to provide accommodations to students with disabilities. 
She is recognized for the many improvements she helped 
implement in how the school district approaches dyslexia 
evaluation and intervention. She previously taught in several 
Austin Schools and has taught in the Teacher Preparation 
program at the University of Texas as well as in the 
Educational Psychology Departments at both the University of 
Texas and Texas State University. Dr. Robillard remains an 
Adjunct Faculty at both universities. Dr. Robillard received 
her bachelor's degree in elementary education and Spanish and 
her master's and Ph.D. in educational psychology from the 
University of Texas in Austin.
    We welcome you all, and Ms. Wilson, if you'll begin?

                TESTIMONY OF MS. BARBARA WILSON,

                   CO-FOUNDER AND PRESIDENT,

                    WILSON LANGUAGE TRAINING

    Ms. Wilson. Thank you, Chairman Smith, for your dedication 
to individuals with dyslexia and to all here working for the 
betterment of their lives.
    This is a critical time as many states are recognizing the 
existence of dyslexia but need further guidance on how to 
prepare their teachers to effectively teach these students and 
how to implement the instruction with success.
    Thirty years ago, I was hired to test students in grades K-
12 referred for an educational evaluation. I quickly realized 
that by far the most common reason for referral was the 
inability to read. Following testing, I led the team meeting to 
determine an instructional plan. At first, I enthusiastically 
shared what we would do to teach the child to read. 
Unfortunately, that soon changed as I did many three-year 
reevaluations that demonstrated that what we were doing was not 
working. In fact, after three years without progress, the 
students became even more desperately behind.
    My search to help these students led me to Massachusetts 
General Hospital's Language Disorders Unit, where I did 
clinical training with individuals diagnosed with dyslexia 
using a methodology called Orton-Gillingham. I was excited to 
see that it worked, and also discouraged that this teaching 
knowledge was limited in reach, often only available in private 
schools costing $20,000 or more per year.
    For five years I continued at Mass General Hospital part-
time, teaching adults diagnosed with dyslexia. Concurrently, I 
founded the Wilson Learning Center with my husband, Ed. 
Students who had long struggled despite IEPs and teachers' 
efforts came to the Center to learn to read.
    During this time, I developed the Wilson Reading System. 
Soon I was invited to meet with special-education directors 
from 10 nearby school districts who asked me to work with their 
staffs. Parents were demanding that they teach like we did at 
the Center. Thus, I shifted focus in 1988 to provide both 
curricula and professional learning to teachers in public 
schools.
    My work with adults taught me that it was possible to teach 
these individuals to read, but if they don't learn to do this 
while still in school, too often their paths in life are filled 
with significant failure and distress.
    I wish I could tell you that the beginning of my story 
could not be repeated in 2015 because all teachers are now well 
prepared to teach students with dyslexia. Sadly, that is not 
true. The same scenario plays out over and over again across 
this country today. A student cannot read and is referred to 
special education where teachers are unprepared to teach them.
    It should not be this way. Research has identified the 
necessary instruction the individuals with dyslexia need, as 
the previous panel on the science of dyslexia shared with you.
    Teachers desperately want to teach their students how to 
read, but most teaching degree programs do not include the in-
depth practical work needed to gain the skills to do this with 
their most challenged students. School districts throughout the 
country have recognized this gap and contract with us to 
provide the necessary training. At times, we are brought in as 
the result of a due-process hearing for a student who is 
desperately behind. Our extensive training yields a 
certification and includes expert supervision of teachers as 
they work with a student who has a significant reading 
disability. Teachers who previously had earned their reading or 
special-education degrees often express, ``Why didn't I learn 
to do this before?''
    Wilson has certified 25,000 dyslexia specialists in public 
schools in 50 states, and we now partner with six universities 
that embed the certification into their teaching degree 
programs.
    Individuals with dyslexia can absolutely learn to read if 
working with a knowledgeable teacher under the right 
conditions. I've witnessed thousands of students who were 
unable to reach even basic words when they were past elementary 
grades later learned to read with a well-trained teacher, go on 
to college, and often chose careers in engineering and science.
    Technology aids such as audio books can assist these 
students, but they should not replace instruction that will 
actually teach the student how to read independently. Further 
advances in technology will help us scale effective instruction 
to students, but teachers are also an important part of the 
equation. Providing teachers with knowledge and skills is 
necessary but not sufficient. Implementation science informs us 
that successful results will only be realized if a school is 
structured to enable these students to provide the needed 
instruction.
    I believe that the READ Act is important to bridge the gap 
between what research says and what we should do for students 
with dyslexia and what is actually done in our schools today.
    Thank you.
    [The prepared statement of Ms. Wilson follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Wilson.
    And Dr. Tallal.

                 TESTIMONY OF DR. PAULA TALLAL,

                   SENIOR RESEARCH SCIENTIST,

                 CENTER FOR HUMAN DEVELOPMENT,

              UNIVERSITY OF CALIFORNIA, SAN DIEGO;

                       ADJUNCT PROFESSOR,

             SALK INSTITUTE FOR BIOLOGICAL STUDIES;

                     FOUNDER AND DIRECTOR,

                SCIENTIFIC LEARNING CORPORATION

    Dr. Tallal. Good morning. I'm Paula Tallal, and I'm a 
Research Scientist and Co-founder of Scientific Learning 
Corporation, a neuroscience-based educational software business 
that has been actively translating research aimed at 
remediating language and reading problems for almost two 
decades.
    Today I'll testify to the fact that there is an epidemic of 
reading failure that we have both the scientific evidence and 
novel interventions to treat effectively. What we do not have 
is an effective roadmap for implementing evidence-based tools 
and technologies on a broad scale or a mandate for our schools 
to use these evidence-based advances to help millions of 
struggling readers.
    The heartfelt message I wish to convey to you today is that 
while failing to learn to read is not life-threatening, it 
certainly can be life-destroying.
    There's ample research that demonstrates that the factors 
that cause reading failure begin well before the child enters 
formal education. This research has shown that even in infancy, 
the precursors to reading failure can be identified reliably in 
the form of slow and inconsistent auditory processing. This 
auditory-processing constraint cascades over the early years of 
life, disrupting the development of succinct phonological 
representations in the brain, oral language and ultimately 
reading.
    Processing the individual sounds or phonemes inside of 
words is the fastest thing the human brain has to do. In order 
to learn to read, a child must become aware that words are made 
up of individual phonemes and it is the sounds that the letters 
represent. This process is called phonological awareness. 
Decades of research has demonstrated that failure to become 
phonologically aware is at the heart of reading failure.
    Put simply, when it comes to auditory processing, children 
with language learning problems are operating on the equivalent 
of dial-up speed while good language and reading skills require 
a child to operate on the equivalent of high-speed internet.
    Traditional tools for teaching reading, regardless of how 
expertly or how often they're applied, will not work for most 
struggling readers until these more foundational skills are 
remediated. Throughout life but especially early in life, the 
brain is literally shaped anatomically and physiologically by 
experience. This experience-driven organization of the brain is 
called neuroplasticity. Understanding neuroplasticity and the 
variables that drive it has the potential to absolutely 
revolutionize interventions for struggling readers by directly 
remediating their auditory perceptional phonological awareness 
and language problems.
    In 1994, I began a collaboration with Dr. Michael 
Merzenich, a world expert on neuroplasticity, with the goal of 
integrating advances in neuroplasticity and learning disorders. 
In the ensuing 20 years, both behavioral and neuroimaging 
studies have demonstrated that the foundational auditory 
processing and language skills known to lead to reading failure 
are highly modifiable and can be brought into the normal range 
in just a few months using intensive neuroplasticity-based 
training exercises disguised as computer games.
    We founded Scientific Learning Corporation to translate 
these research advances into practice in classroom tools that 
could broadly be scaled and efficacy tested in real-world 
classrooms. These evidence-based educational tools are 
distributed under the brand name Fast ForWord and Reading 
Assistant and have been used in over 12,000 U.S. schools with 
as many as 70,000 students a week. The cumulative efficacy data 
obtained when schools implement these programs rigorously is 
very positive, especially when compared longitudinally to 
students' previous performance using traditional methods.
    Thomas Gibbs Elementary School in St. Mary's Parrish, 
Louisiana, is one of the many schools that have used Fast 
ForWord and Reading Assistant. Before implementing these tools, 
only 19 percent of fourth-grade students scored basic or above 
in language arts on their statewide achievement tests, placing 
the school in the bottom quartile statewide. After two years of 
use, Thomas Gibbs School had moved into the top quartile 
statewide with 81 percent of students now scoring basic or 
above in language arts.
    So here's my news flash. Research shows that reading 
success relies on a solid foundation of rapid and consistent 
auditory process and oral language. Traditional reading 
approaches presuppose that a child has these foundational 
skills, but this is just not the case. Not providing educators 
with evidence-based tools to remediate the foundational 
processing skills that are well known to be precursors to 
reading failure is equivalent to demanding that a builder 
construct the third floor of a school without having the tools 
to build a sufficiently strong first and second floor, and then 
wondering why the school keeps collapsing.
    I'd like to close with some recommendations for H.R. 3033. 
As Ms. Johnson mentioned, NSF has already recognized the gulf 
between scientific knowledge and translation into education and 
set out to bridge this gulf by creating six Science of Learning 
Centers including the Temporal Dynamics of Learning Center at 
the University of California San Diego, which I co-direct. The 
ten years of funding of these Science of Learning Centers is 
coming to a close. My first recommendation is to capitalize on 
the advances these Centers have already made to design 
professional development courses on the new science of learning 
specifically as applied to early identification and remediation 
of learning impairments. We must leverage existing federal 
investment.
    My second recommendation focuses on improving the 
translational method itself. Translation and dissemination into 
classrooms on the scale needed to address our epidemic of 
reading failure is painfully and frustratingly slow. What is 
urgently needed are actionable methods that result in 
determining the equivalent of a one-lane country road from the 
laboratory into the classroom into a bidirectional superhighway 
to improve the prospects of the millions of children with 
reading impairments for decades to come.
    Thank you for the opportunity to speak to this important 
bill, and I look forward to your questions.
    [The prepared statement of Dr. Tallal follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Tallal.
    And Dr. Robillard.

               TESTIMONY OF DR. RACHEL ROBILLARD,

                      ASSISTANT DIRECTOR,

           504 SERVICES AND RESPONSE TO INTERVENTION,

               AUSTIN INDEPENDENT SCHOOL DISTRICT

    Dr. Robillard. Thank you, Mr. Chairman, Ranking Member 
Johnson, and distinguished Members of the Committee for 
inviting me to testify today. I appreciate the opportunity to 
appear before you to discuss the importance of focusing on the 
issue of dyslexia, a disability affecting one in six students 
that unfortunately goes largely unnoticed in federal policies.
    I currently coordinate all student 504 services for the 
Austin Independent School District, where I oversee our 
district's Dyslexia Services program. Our department works with 
each of the 129 Austin campuses to provide professional 
development and guidance to help teachers understand the 
indicators of dyslexia, so we can identify students as early as 
possible and provide the intervention that's needed. This is a 
significant change from the previous model, and progress is 
still not as swift as we would like.
    We had approximately 2,000 students identified with 
dyslexia when I began this process in 2013. With concerted 
effort, we've now identified around 5,000 students, but that is 
still only about five percent of our overall student population 
in AISD.
    In May of 2014, at the urging of a member of our Board of 
Trustees, we began allocating funds to provide teacher training 
so that some teachers could become certified academic language 
therapists, or CALTs. A CALT can provide the most advanced and 
efficacious type of dyslexia intervention available. Our goal 
is to have at least one CALT for every campus. Eighteen months 
into the program, we're now 61 teachers toward that goal. This 
effort, fully funded by local dollars, comes at great cost to 
the district and only provides training for one teacher per 
school. However, additional professional development including 
training and materials is made available for all K-12th grade 
teachers so they can better understand dyslexia and how to 
deliver curriculum in an accessible manner for all of the 
identified students.
    Dyslexia impacts 10 to 20 percent of students in K-12 with 
varying levels of severity. Ideally, teacher preparation 
programs would include coursework dedicated to identifying and 
teaching students with dyslexia, a disability which has a high 
rate of impact on literacy acquisition regardless of 
socioeconomic status or race.
    Ultimately, the greatest impact would be provided by 
training all pre-service teachers to identify and teach 
dyslexic students, making the possibility of having specialized 
reading task forces for dyslexia at each campus a natural 
byproduct.
    In my position coordinating 504 services as well as in my 
private practice as a neuropsychologist, I strongly encourage 
support for the READ Act. Having specified annual funds devoted 
to dyslexia research that focuses on best practices in early 
identification, professional development for teachers and 
administrators, and curriculum development and evidence-based 
educational tools for children with dyslexia can only improve 
the opportunities of all students to have access to an 
education that allows each of them to learn to read.
    At the university level, this would lead a shift toward 
increased pre-service development in areas that address basic 
reading deficits and their neurobiological etiology as well as 
the understanding of language development and how it's 
influenced by dyslexia. A few universities have such programs 
but most do not address dyslexia in any format during pre-
service training. Lack of teacher training and understanding 
the indicators of dyslexia causes students to be missed or even 
misidentified as having other learning issues. Teachers deserve 
this training.
    Identifying dyslexia is only the first step of the process. 
To fully address learning difficulties for dyslexic students, 
we must keep the disorder in mind when designing classroom 
instruction, implementing technology plans, planning for social 
and emotional learning, understanding how to provide parent 
support and engagement, and training our administrators to be 
knowledgeable about appropriate identification and 
intervention.
    Dyslexia is not a disorder that can be compartmentalized. 
It is not just a deficit but it carries with it inherent 
strengths that have been recognized for decades. These might 
include other areas of academic strength, creative ways of 
thinking, more acute perceptual reasoning, and many other 
traits.
    When dyslexia goes unidentified and undiagnosed, these 
strengths are often suppressed and the lack of understanding 
frequently leads to both student and staff frustration. It is 
not uncommon for unidentified dyslexic students to become 
unmotivated or to have behavioral problems, and they often 
perform significantly below potential academically. 
Unidentified, their underlying strengths may never be 
discovered.
    The READ Act is a necessary flotation device to bring 
scientific knowledge about dyslexia up to a more universal 
understanding and to enhance our ability to make the practical 
application of science to practice more seamless for educators 
and students. Policies such as found in the READ Act will allow 
dyslexic students access to early identification as well as 
appropriate literacy instruction and the opportunity to develop 
their potential to the fullest.
    Our prison population is replete with dyslexic individuals 
who have been identified too late. While dyslexia 
identification and intervention is not likely to be the entire 
answer to the school-to-prison pipeline, it certainly seems to 
be a key factor that if better understood could be addressed in 
a systematic and effective manner. We will all benefit at every 
level by investing in research concerning dyslexia and all 
issues related to that disorder.
    Thank you for inviting me to testify.
    [The prepared statement of Dr. Robillard follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Robillard.
    It's my understanding that the gentleman from California, 
Mr. Takano, has an urgent need to get to another meeting, so 
I'm going to recognize him first for questions with the 
understanding, of course, that he join the caucus and cosponsor 
the bill.
    The gentleman from California is recognized.
    Mr. Takano. Mr. Chairman, I am already a member of the 
caucus, I discovered, and I will announce my support and 
cosponsorship of the bill.
    Chairman Smith. The gentleman is recognized for an extra 
minute.
    Mr. Takano. Thank you.
    Mr. Chairman, I am so grateful for this hearing. I am so 
grateful for the work you've already done and your leadership. 
If we can do something about dyslexia in this country, we will 
have done a great thing to help alleviate so much unnecessary 
suffering among all sorts of people in our country. So I thank 
you, thank you, thank you as a former teacher of 22, 23 years.
    I've got to tell you, I began my teaching career armed with 
an Ivy League degree, and I could analyze literature but I was 
little prepared for the first ten years of my teaching career 
to deal--I didn't even know I had dyslexic children in my 
classroom and kids, and it wasn't until I did a literacy 
training that I began to even scratch the surface. And once I 
began to identify them--profoundly dyslexic students--I would 
try to get them into special ed, but special ed was not 
equipped--the teachers did not know how to address it. They had 
no more knowledge about what to do with dyslexia than I did.
    I had to try to teach myself but of course with all the 
other things that are going on with a classroom teacher, that 
sort of training--I mean, I needed training, and I'm just 
eager, Mr. Chairman, to go visit--I hope that we might have a 
chance to go visit some of these facilities and what they're 
doing. I would like to know what it is--I mean, I learned 
things like the inside-out strategy, you know, with blended 
sounds at the beginning. I had a kid that could not read the 
word ``strip'' because there were three consonants that begin 
that word, and they struggled with it, but if we began from the 
inside out and said ``rip, trip, strip,'' that was a strategy 
that improved their ability to decode those words. I learned 
about phonemic awareness. There is a science to this stuff, and 
so I am excited.
    I've asked my staffer to take a look at how we can review 
the prison population and figure out how many of our prisoners 
are dyslexic. That is an important thing for us to know.
    So I am just so excited about this hearing, and there's so 
much that can come of this.
    So Dr. Tallal, I want to ask you a question. Why do so many 
English-language learners and children from poverty struggle 
with learning to read?
    Dr. Tallal. Thank you for that really insightful question.
    There's a good deal of research which I have covered 
directly in my written testimony that I would ask you to 
review, specifically on children from poverty and English-
language learners. I would like to say that children from 
poverty also have linguistic impoverishment. That is, that 
research has shown that the difference between children from 
high-socioeconomic-class families and low-socioeconomic-class 
families is a 30-million-word gap in the sheer number of words 
they have ever been exposed to.
    What we know from neuroplasticity research is that we 
literally have to set our own brains up based on experience, 
and the most important experience we get as an infant is the 
sounds of our own native language. Language experience is what 
we have to use to establish these basic phonological categories 
to build our efficient and automatic auditory, rapid auditory 
processing systems, and if we don't hear words, we're just not 
going to have them, and so the end product is a problem with 
rapid auditory processing, language developmental delay, 
subsequently not having the foundations for literacy.
    For children who are English-language learners, they have 
not heard the sounds, the phonological sounds, that are 
important for learning English, so they have to be given these 
sounds in a very systematic way.
    Mr. Takano. Systematic?
    Dr. Tallal. Yes.
    Mr. Takano. So the phonemic awareness, it's often very 
tedious. It takes a lot of creativity for the teacher to be 
able to develop that.
    Dr. Tallal. This is where technology can come in.
    Mr. Takano. Ah.
    Dr. Tallal. Now, what technology has to offer is the 
ability to offer more intense learning trials per unit time 
than can ever be provided by a teacher no matter how well 
trained they are because computers just can deliver much more 
information with stimulus, response, correction and timely 
rewards. So, what we often say at Scientific Learning 
Corporation is let computers do what computers do best, which 
is the repetition, repetition, repetition that the brain needs 
to set up its own auditory and linguistic systems, so that 
teachers can do what teachers do best. We need to focus on 
giving teachers these new and improved technological tools that 
allow them to build these fundamental processing and linguistic 
skills so that by the time they try to use their more 
traditional methods, they will actually have the ability for 
them to work.
    Mr. Takano. So the technology is really the basis--the 
foundation, the physical foundation, the stimulus response, the 
neural pathways in the brain----
    Dr. Tallal. Right.
    Mr. Takano. --to develop that fluency in being able to 
decode words at the very physical level. We all have this 
phenomenon--we know this phenomenon of ``I read it but I don't 
understand it,'' and that's where the teacher comes in to be 
able to--after the student is able to physically decode the 
words to be able to work with that student in comprehension and 
the critical thinking. So we need the teacher in the process 
but at the very----
    Dr. Tallal. Absolutely.
    Mr. Takano. But at the very--but this--I hear what you're 
saying because for the teacher to be able to do this with every 
single student in a very tedious, systematic way, too much 
labor involved and not the best use, but if there's a 
technology, that's really promising news.
    I have taken my six minutes, Mr. Chairman. I've got to 
ironically get to Education and Workforce Committee. We've got 
to do supplemental--I hope you will urge Chairman Kline and the 
Subcommittee Chairman to also delve into this is great 
bipartisan project. I love this, so thank you.
    Chairman Smith. Great. I thank you, Mr. Takano. And also, 
let me say I think Mr. Takano may be the only former teacher on 
this Committee, so we appreciate the perspective that he 
brings. By the way, if he's not the only former teacher, I will 
be hearing about it shortly.
    I'll recognize myself for questions, and let me address my 
first one to Ms. Wilson.
    You developed a reading system that led to ``rewiring of 
the brain to function similarly to the brain of a good 
reader.'' That is amazing. Can you describe that to us briefly?
    Ms. Wilson. Yes. The reading--do you mean describe the 
reading system briefly?
    Chairman Smith. Yes, if you can.
    Ms. Wilson. Yes. The Wilson Reading System is based on 
Orton-Gillingham principles of instruction, or multisensory 
structured language instruction. MSL programs work with 
students to build up their understanding of the language 
structure right from the beginning. So as you heard earlier, 
the student needs to understand how to process sounds and 
understand from what they hear how sounds work in words, and so 
you go right back to the very beginning and do that with your 
students.
    That's the beginning step. The students really need to 
understand how that sound system relates to the structure of 
words in syllables and understanding prefixes and suffixes. 
Phonology is one piece and morphology another. Morphology is 
the study of the smallest units of meaning within words.
    Chairman Smith. Right.
    Ms. Wilson. So students need to understand everything about 
language structure and its words, its sentences and text 
structure.
    Chairman Smith. Okay. Thank you.
    By the way, you're familiar with a Shakespeare quote that 
says, ``All's well that ends well''?
    Ms. Wilson. Yes.
    Chairman Smith. It sounds like you're saying all's well 
that begins well.
    Chairman Smith. Dr. Tallal, let me ask you a question, and 
that is, what is the best way to detect dyslexia earlier, just 
kind of what we're talking about across the board.
    Dr. Tallal. Well, interestingly, the precursors to dyslexia 
can be detected quite reliably even in infancy in the form of 
slow auditory processing, and my colleague, Dr. April Benasich 
at Rutgers University found that children that were born into 
families with a family history of language learning problems 
were 50 percent more likely to develop reading problems later 
in life. She subsequently showed that the speed of auditory 
processing of simply detecting differences between two brief 
tones separated by small gaps of time was the single best 
predictor in 7-month-old babies to subsequent oral language 
development. Oral language development subsequently is the 
single best predictor for reading and reading failure. So 
there's this cascade which I call the language-to-literacy 
continuum, which begins with slow auditory processing, which 
interrupts the brain's ability to effectively and efficiently 
process the sounds of language which are necessary, are the 
necessary components, as we're hearing, for being able to hear 
the small sounds in words and learn that those are the letters 
that are in the words, and you can't really learn to read 
without that.
    Chairman Smith. Great. By the way, I liked your earlier 
metaphors between the dial-up versus the high-speed internet 
and the country road versus the superhighway. That's a nice 
description.
    Dr. Tallal. Thank you.
    Chairman Smith. Dr. Robillard, this is really just 
following the trend here, but what do you think is the quickest 
and most efficient way to test and identify those with 
dyslexia?
    Dr. Robillard. We have good tools. I think that we need to 
be applying them a lot earlier than we typically do. The tools 
that we have I think could be improved upon, and I thoroughly 
agree that that oral language, our speech pathologists that 
identify our students at 3 and four years old for PPCD programs 
in schools would certainly be our allies in really identifying 
these students very early. The screening that they do for that 
process could be expanded on fairly easily to identify these 
students that are needing this early intervention.
    Chairman Smith. Okay. Good.
    I'd like to ask you all a question, and we can start with 
Ms. Wilson. If you will each give me two strengths that you all 
think are inherent with those with dyslexia? Ms. Wilson?
    Ms. Wilson. Absolutely the perceptual strengths. So often 
they make wonderful architects and have incredible ability to 
see in different ways visually. Also, I think that they are 
often intuitive and are great at reading people and reading 
situations, and I have seen that in so many students who are 
dyslexic, that they are great at perceiving other people's 
emotions and strengths.
    Chairman Smith. Okay. Dr. Tallal?
    Dr. Tallal. Yes, I would agree that visual perceptual 
strengths are often characteristic of individuals with 
dyslexia. I don't know which came first, the inability to 
process the rapid auditory signals and so the brain had to 
compensate by developing stronger visual processing, but I 
never cease to be amazed at the number of cameramen who come to 
do interviews or whatever. It's not the person doing the 
interview, it's the cameraman who will often come up to me 
after the interview often with tears in his eyes about his own 
personal struggle with dyslexia and the shame, so that's one.
    The other is perseverance and hard work. I mean, don't ever 
tell me that these kids aren't trying or don't care. They try 
so hard. They just don't have the neural capacities set in 
place, and we can give that to them. I mean, that's what's 
exciting. We have the tools now to help them build this 
foundational structure, and then everything else we're hearing 
about is going to work better.
    Chairman Smith. Absolutely.
    Dr. Robillard?
    Dr. Robillard. So I would agree with the perceptual 
reasoning. I think that they're typically very creative 
thinkers too. They have to think differently. They're typically 
very bright and they figured out ways to compensate for not 
being able to read, and so that helps them be very creative 
thinkers, so they're often the people that come up with that 
solution that nobody else thought of. And I think the second 
characteristic that I see over and over again that I think 
helps partially with that perseverance piece too, is they have 
a great sense of humor.
    Chairman Smith. Excellent. Thank you all very much.
    The Ranking Member, the gentlewoman from Texas, Ms. 
Johnson, is recognized for her questions.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    I have not yet signed on to this bill, not because I don't 
believe in it but because I need some clarifications on how 
extensive the research is going to be.
    And so Dr. Tallal, I'd like to know, you talked about some 
research that you were doing and where some of it is coming to 
a close. What we're proposing here, is that going to extend 
your research or make it more comprehensive so we'll get all 
students ailments involved in the research? Or tell me where 
you are.
    Dr. Tallal. Well, this might seem unusual for a research 
scientist who has depended on government grants for a long time 
for my research, but I would agree with Dr. Sally Shaywitz last 
year that we have the knowledge that we need to improve the 
outcomes of millions of children. We're just not using it 
effectively. We don't have an appropriate roadmap so my 
suggestions that I put into my longer report as well, my 
written report, is that we capitalize on what we already know, 
and that we really focus on the translational path itself 
because it's so slow and tedious. We've been at this 20 years, 
and we have very effective methods, but it's only been used at 
12,000 schools, and that's just a drop in the bucket. We know 
that we can do better but the translational method itself needs 
a lot of work, and NSF can help with that. First of all, when 
someone proposes to do a research study that says that it aims 
to improve translation to education, show me the plan for where 
it shows how it's going to be scaled up to the heterogeneous 
schools, teachers with different kinds of training, and 
students that's going to work because that is not a simple 
thing.
    Doing it in your own laboratory with well-trained 
scientists is one thing. Getting it to work in the hands of 
Mrs. Smith or Mr. Jones in the Thomas Gibbs School, that's a 
very different thing, and to do that over and over again in 55 
countries, which we've done, takes a lot of knowledge. We need 
to use some of that knowledge.
    Ms. Johnson of Texas. Have you read the bill?
    Dr. Tallal. Yes, I have.
    Ms. Johnson of Texas. What would you do to improve it?
    Dr. Tallal. I would focus on this translational process 
itself and including the professional development part, and I 
would recognize that we need a two-way highway, a two-way 
superhighway. Too often as researchers, we think our job is to 
do outreach and teach everyone what we know. I've learned as 
much from educators who are sitting in classrooms every day 
that are struggling with the process as I can teach them. It's 
got to be a two-way and a two-directional street, so I would 
put something in the bill that really reinforces and gives 
teachers and educators themselves the opportunity not only for 
professional development but I've even suggested the 
possibility of training grants or degrees for higher education 
where teachers can do their own Ph.D.'s in their own classrooms 
to try out some of the methods that are already coming from 
research.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Wilson, would you like to comment?
    Ms. Wilson. I agree that implementation is the gap that we 
need to address, and the more we can focus on that aspect of 
the bill, I think that would be ideal because research has told 
us what we need to do and we have seen what works in schools. 
It is possible in public schools.
    I recently coauthored with Dr. Michelle Duda a white paper 
for Literature Nation that talked about the policy to 
implementation gap. There is a science to implementation called 
implementation science, and it talks about you can have an 
effective intervention but that's only a small piece of it. You 
need to have effective implementation and enabling context so 
there's actually a formula that has been proven by 
implementation science and it takes those three pieces of the 
formula to get the intended results. I would like to have some 
of the research look at looking at putting into practice that 
formula.
    Ms. Johnson of Texas. Thank you very much.
    Yes?
    Chairman Smith. Would you yield me the balance of your time 
quickly?
    Ms. Johnson of Texas. Yes----
    Chairman Smith. Thank you. I wanted to get----
    Ms. Johnson of Texas. --reluctantly.
    Chairman Smith. Ms. Wilson, a question I didn't get to ask 
you a while ago is, what's the difference in your approach to 
young people versus adults when it comes to dyslexia?
    Ms. Wilson. That's a wonderful question. I am so glad you 
asked that because I would also love to see research focus more 
on ``it's never too late,'' because as important as early 
intervention is, and we know how important that is. In fact, if 
you do not identify a student early and start teaching an 
intervention in fourth grade as opposed to first grade, it 
takes four times as long to teach that student how to read. So, 
what happens as the student gets older? There's a lot more 
failure that you're working to overcome. We know that IEPs 
after fourth grade often do not include the types of things 
that students with dyslexia need.
    Chairman Smith. By the nodding of heads, everybody else 
agrees with you. Good point. Thank you.
    The gentleman from Arkansas, Mr. Westerman, is recognized 
for his questions.
    Mr. Westerman. Thank you, Mr. Chairman, and Mr. Chairman, I 
would also like to thank you for your lead that you've taken on 
this issue. I know I'm a freshman here, but we talked about 
this earlier, and I was excited that you're working so hard on 
this. I told you about my wife, who's a special-ed teacher, and 
the biggest advocate for me is her asking if I would sign on to 
the Dyslexia Caucus, have I sponsored this bill yet.
    I'm also happy that we've got a great bipartisan issue that 
we can work on because it's for children in this country, and 
it's really for our future, and it's so important that we teach 
children to read at an early age because it helps them out all 
through life. We all understand that.
    As a matter of fact, as has been mentioned today, there's a 
large body of research on dyslexia. We know what it is, we know 
how to fix it, we know how to identify it. We've even got 
fabulous technology that we can use in the process to help 
correct dyslexia. But it's almost as if we've found the cure 
for cancer, we've developed the drugs to heal cancer but we 
can't get those drugs into the pharmacy and out to the people 
who need them.
    So I see this huge issue with implementation, and I can 
tell you a personal story on this. I was in the state 
legislature and I helped sponsor a bill in Arkansas to create 
our dyslexia law much like Texas has done, and the bill passed. 
Then we found out that the schools were totally unprepared to 
implement this law. The teachers were not trained for it. We 
found out that this training is not in the institutions of 
higher education. I was glad to see, Ms. Wilson, that you said 
there are six universities that are implementing your program 
into their training, but I think we've got a huge gap at the 
higher education level in training teachers, and actually I 
think we're training teachers in reading programs that may even 
be detrimental to helping children with dyslexia.
    So I want to put a plug in for my home state. We're doing a 
forum next March. Dr. Shaywitz is going to be there as a 
keynote speaker. I'm doing this in conjunction with our 
Department of Education. I'm going to have a forum there, and 
the focus of my forum's going to be how do we improve this 
implementation gap, and I just want to get your ideas on the 
areas we need to address to help the implementation, to get the 
teachers and the schools and the administrators trained and 
motivated to apply these fabulous tools that we've got so that 
we can help these kids and reap all the benefits of that, and 
I'll start with Ms. Wilson.
    Ms. Wilson. I find that special-education teachers are very 
motivated. They themselves recognize that they don't have the 
skills, and I think we heard that earlier as a teacher when 
you're working with students and you're not making a 
difference, you know it. So I think the motivation is there. 
They just don't know what to do, and so the work with schools 
and school districts really has to begin with the 
administration and educating the administration as to what is 
needed for the professional learning.
    We develop plans with school districts called COMPASS plans 
which are comprehensive plans that occur over one or two years 
to help train teachers. We first work with the school district 
to see where there are gaps, do they have teachers that are 
trained and----
    Mr. Westerman. I don't have a lot of time. I talked too 
much.
    I understand there are ways you can go into individual 
schools, but in the bigger picture, we've got to train teachers 
at the higher-education level, and I've seen a resistance for 
the departments of higher education to take in these new--take 
on these new programs. How do we infiltrate that and get 
teachers taught this so that when they come out of college, 
they're ready to help children?
    Ms. Wilson. That is a major gap. The International Dyslexia 
Association (IDA) has also taken on that issue. A paper was 
written, The Knowledge and Practice Standards for Teachers of 
Reading, and it's a great document that really outlines both 
the knowledge and the skills that teachers need. It really 
specifies that this is what we should be doing in colleges of 
education. I was one of the coauthors of that papaer and IDA is 
now working to get the word out to universities. There's so 
much need absolutely at the university level.
    Mr. Westerman. Thank you, and I guess I'm negative on 
yielding.
    Chairman Smith. Thank you, Mr. Westerman.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, Ranking 
Member Johnson, for holding today's hearing.
    As the mother of three who's been in those first-grade 
classrooms and seen very bright kids who are struggling, as 
somebody who comes from a state where our Governor, Dan Malloy, 
by his own admission is profoundly dyslexic, was the first 
person in the State of New York to have an oral bar exam as a 
level of his dyslexia, had his wife read his law books to him, 
is an example of the kind of stellar people we have who happen 
to also be dyslexic.
    And to your category, Dr. Robillard, I would add every 
tradesperson I know who is supercreative is terrible at 
reading, and they put their creativity into working with their 
hands and that spatial ability. So we have enormous innovators 
who are hampered and oftentimes beaten down, discouraged, told 
they're stupid, made to feel unsuccessful. So I see an enormous 
opportunity for this country, and I'm so delighted that, as you 
can tell here, there's a lot of enthusiasm on the part of this 
Committee and elsewhere in Congress to do a better job. So 
let's figure out how we do that.
    I was encouraged, Dr. Tallal, by your discussion about 
neuroplasticity, and particularly when we look at prison 
populations, we look at people looking for retraining. Can you 
talk a little bit about the research we might need to do on 
that? In addition for children, how do we get this 
neuroplasticity training at work for adults who need this help 
as well?
    Dr. Tallal. Well, the good news is that neuroplasticity 
lasts a lifetime, and the same variables that drive 
neuroplasticity, which are repetition, repetition, repetition, 
individually adapting from easier to harder items, sustained 
attention, and timely rewards to release neurochemical feedback 
saying that was a good one, save it, are the same throughout 
life.
    Yes, it may be harder because people have--older people 
have developed more alternate strategies but we have developed 
versions of Fast ForWord for all ages. It's been shown to work 
in colleges, it's been shown to work in prisons. The big 
problem that we have getting our methods into prisons is the 
fact that we require the computer and the internet to give 
feedback on a mouse-click-by-mouse-click basis so we can 
individually adapt. These are highly technological methods, and 
many prisons don't allow the internet. But you can get around 
that by having servers.
    Nonetheless, the results are very encouraging that 
neuroplasticity lasts a lifetime. You just have to know how to 
drive it, and it needs to be driven by computers first and then 
backed up by what teachers do best. Let computers do what 
computers do best, which are also much more scalable at a more 
economical level so that teachers can do what teachers do best.
    Ms. Esty. That makes a great deal of sense. The Chairman 
and I have worked a lot on STEM education and support for 
teachers, and I hear a lot of the same issues that we face in 
the STEM field. We have great programs that work. We need to 
scale them and we need to get that information out in a way.
    So one thing I would ask you, because we've seen this on 
the STEM field with the Noyce master teacher program, is 
whether we need something like that to help show--I think part 
of it is to show teachers how effective this is, to get them 
into classrooms and see what the teacher who's trained with 
these skills to see what a difference they can make so that 
they embrace it--not as a requirement, but rather as an 
opportunity to help students who are otherwise struggling.
    Dr. Tallal. If you don't understand neuroplasticity or how 
the brain actually learns, which is what these Science of 
Learning Centers are all about. If you don't understand that 
children who are struggling, or adults who are struggling, to 
read have not built the foundational first and second floor and 
you keep hammering away at trying to give them more time to 
build the third floor and you have never been taught that in 
your educational programs, you're not going to understand why 
these programs when you look at them could possibly work. So 
you need the professional development or changes within the 
teachers' colleges themselves, which is much harder to come by 
in order for people to even understand why something might need 
to be done, what the science shows and then why these tools 
might be effective.
    Ms. Esty. A final question. As we try to figure out how to 
scale up, and we all are talking about the scale-up issue, do 
you think that in this legislation or perhaps in other 
legislation we need to be having research that demonstrates the 
effective teaching skills that would lead to faster 
dissemination and acceptance?
    Dr. Tallal. What I mean by scaling up is that if we say 
that our goal for getting funding from NSF is translation to 
education, I think the bill could ask for explicit criteria for 
evaluation and priority to those methods and approaches that 
have more potential to actually be scaled up for use in a wide 
variety of classrooms, and many of them do not. I mean, I see--
as scientists and as NSF starts to evaluate, they're always 
looking at the theory, the science, the double-blind control 
study. I think we also need to really reevaluate whether a 
double-blind control study is ecologically or morally sound for 
an educational environment as the only gold standard for 
determining efficacy. I think cumulative data over a lot of 
different approaches is what really will help move this bar for 
education rather than demanding that there's only one kind of 
evidence that works.
    Ms. Esty. Thank you, and that's a provocative one we can 
follow up on later. Thank you.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from Alabama, Mr. Palmer, is recognized for 
his questions.
    Mr. Palmer. Thank you, Mr. Chairman, and I want to thank 
all the witnesses for being here. My daughter is finishing her 
graduate degree at Auburn University in speech pathology----
    Ms. Wilson. Fabulous.
    Mr. Palmer. And she had to have speech therapy when she was 
little, so I know how important this work is.
    Dr. Tallal, we have a school, Spring Valley School in 
Birmingham, that specializes in teaching children with learning 
disabilities, and according to information from that school 
individuals affected by dyslexia are often affected by other 
disabilities as well. Can you discuss the interaction of 
dyslexia and other disabilities and the challenges that this 
presents for students and the teachers?
    Dr. Tallal. That's an excellent point. Our brain is not 
divided easily into compartments. When you have a problem in 
one area, it often will cascade into other areas. When you have 
a problem with how the brain can efficiently process incoming 
sensory information, that is going to cascade in a number of 
ways into other functions, cognitive functions, linguistic 
functions that subsequently impact reading. So I think that 
is--basically the finding is that there's a tremendous overlap 
when you get right down to it and great heterogeneity in 
children whose final common denominator is they cannot learn to 
read. But there are many subskills that could have led them 
there.
    Many of these children are diagnosed with attention deficit 
disorder, and at a scientific level did you fail to pay 
attention because you couldn't process fast and efficiently, or 
are you failing to process fast and efficiently because you 
can't pay attention? So we do need to still understand that.
    Many children are diagnosed with autism spectrum disorder. 
That is a language-based learning disability.
    Mr. Palmer. So when we talk about increasing funding for 
research on dyslexia, I think we need to also be talking about 
some overlap with--in the research in this area, how these 
other disabilities interact and follow that out.
    Dr. Tallal. The diagnosis you get often depends on just who 
you got sent to see.
    Mr. Palmer. Right.
    Dr. Tallal. Okay. If you got sent to see a psychiatrist, 
you're going to get one diagnosis. If you got sent to see a 
speech pathologist, you could get a different diagnosis. If you 
got sent to see a reading specialist--and it also depends on 
the age at which your disability is finally diagnosed. But that 
doesn't mean they're all mutually exclusive from each other.
    Mr. Palmer. It really sounds like we need to be able to 
have a one-stop-shop when we're dealing in these areas because 
you could get misdiagnosed. It's kind of like firing a rifle at 
a target. If you're off a little bit at the front end, you're 
off a lot at the back end.
    Dr. Robillard, in your testimony, you highlighted the 
approach you're taking in Austin to better serve students with 
dyslexia. What are you doing in Austin that's different than 
approaches taken in other schools?
    Dr. Robillard. I think what we did in Austin was, we took 
that science to practice seriously the last two years. I left 
the ivory tower to come back and do this because I would 
diagnose them as a neuropsychologist and I would send a lovely 
report to the school district, and nothing would happen, and so 
I got a little frustrated and finally decided to put my money 
where my mouth was and went back to try to see what I could do 
with it and had wonderful backing of our board of trustees. 
That's where our process started was getting their support and 
then getting our superintendent on board, and teaching. I 
actually would go teach our board of trustees. They invited me 
to come teach them about dyslexia, teach our superintendent 
about dyslexia, and from there we were able to--we now have in 
every school in Austin, 129 of them, 85,000 kids in our school 
district, we have what's called a dyslexia designee on every 
campus, and that person has been taught what these ladies have 
been talking about all afternoon and they have--they understand 
now on that level. We've also brought in evidence-based 
multisensory Orton-Gillingham-based programs for all grade 
levels. We have changed the diagnostic process. We used to have 
classroom teachers doing this diagnosis. Many kids went 
misdiagnosed. So sadly, I'm diagnosing students that are in 
high school now that never got diagnosed early, but we're 
diagnosing them now and we're intervening now because the 
neuroplasticity is there, and if you have the right tools, you 
can make a huge difference in their lives by getting the right 
diagnosis and getting those intervention materials.
    So we've made a concerted effort to not only get those 
highly trained CALTs but to get training for all of our 
teachers K-12 in at least the understanding of dyslexia and 
then at every grade level have teachers trained who are both 
special education, and we address a lot of dyslexia in Texas by 
504 under the ADA. So we do it in the regular education setting 
with teachers that are trained on the materials to deliver them 
in the gen-ed classroom.
    Mr. Palmer. Mr. Chairman, would you allow me to ask a 
question of Ms. Wilson?
    Chairman Smith. Yes. The gentleman continues to be 
recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Wilson, you were talking about your reading program. 
One of the things that I wanted to ask you is, is there a 
distance learning component for this when children are out of 
school so that parents can continue to be involved with their 
kids and continue to help them learn.
    Ms. Wilson. Yes, there is distance learning actually for 
teachers and so the teachers can learn.
    In terms of teachers who are trained, they will often do 
distance learning because of technology. That's one of the 
things that technology has brought with the fast internet and 
the ability to do work in observations online. So there are 
some teachers who are actually providing instruction to 
students distantly.
    Mr. Palmer. So they're providing the instruction to the 
students when the students are out of school, and is it 
programs where parents can participate in this program with 
their kids?
    Ms. Wilson. That is--it's not something that we organize 
because we focus on teacher training, and so that would be 
something that the school or the teacher themselves would 
organize. But if that were the case and they were working, yes, 
the parents could be involved with that at home, parents work 
at home is just in a support role as opposed to an 
instructional role.
    Mr. Palmer. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Palmer.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses today.
    I have to tell you, I was sitting here a little bit 
earlier, I think it was the Chairman who asked, you know, what 
the positives are for young people, for people who have 
dyslexia, and it made me tear up because you were describing my 
son, and it was a reminder as a parent and as educators how 
important it is to value all of the person that these young 
people are and how that can contribute to their eventual 
learning success.
    And I was really curious, Dr. Tallal. In your testimony, 
you talked about a description that wasn't--didn't say dyslexia 
but a language-based learning problem, a more inclusive way of 
thinking about the way that some of our children are learning 
differently, and I think that that's really helpful because I 
think it's important for us to say what it is and for people, 
especially our young people, to feel like we're talking about 
them and that we're trying to work on strategies that help them 
to learn the best way that they can.
    It was also a reminder that in the READ Act, of which I'm a 
cosponsor, that we may have some tweaking to do to try to make 
sure that we're capturing the elements of research and of 
teacher training and other aspects that you've identified and 
the knowledge gap from the action gap. And so I thank you for 
that.
    I just came from a celebration of 50 years of Head Start. I 
love Head Start. But it was also another reminder that for 
children not of means, and Dr. Tallal, you talked about this 
30-million-word deficit, that being able to identify learning-
based conditions is really important in that early period, 
especially among young people not of means. And so I wonder if 
you can describe for me what we might begin to think about 
programs like Head Start where we know when people get a good 
head start that they really can succeed but what we can do in 
teacher training, in working with educators to give them the 
tools and something like Head Start that will enable us to 
identify these conditions earlier and to deal with ways that we 
can make sure that young people have the tools that they need. 
And I'll just give you the rest of the time and all of you the 
time to talk about that.
    Dr. Tallal. Well, I love what Head Start has done. I 
completely agree with you on that. And I would just say that if 
we now could also add some of these new technologies, they will 
even further boost the advantage of Head Start. We need to get 
more words and more consistently pronounced words.
    There's a reason that a child, a young child, when asked to 
have a storybook read to them, despite the fact that they may 
have several books, they always want to pick the same book. 
Have you ever experienced that? The parent's going, oh, not 
again, but why does a child want the same book? Because the 
brain is reinforced by being able to predict what is about to 
come next and then have it happen, and books are great for 
that, and repetition is great for that. So there are also some 
wonderful technologies that can allow children to receive more 
consistent reading patterns through books, either through a 
human giving them to them, if they're available, or just by 
being able to have some books that are being read to them.
    Our second product is Reading Assistant, which I haven't 
talked much about, but what Reading Assistant is, is it is a 
scientifically based state-of-the-art voice recognition 
software that allows a child to read out loud to the computer 
and get real-time one-on-one feedback like a virtual tutor. 
There's a tremendous amount of research that shows that if you 
want to build reading fluency, the only way to do that is to 
allow a child to read more out loud with corrective feedback. 
but who has the time to give each child that individual 
attention? Again, we can use some of these technological 
advances to add to what teachers are able to do, and it's a 
partnership, I think, at this point between technology--let 
technology do what technology can do so that teachers can do 
what they can do.
    So I would say adding some of these new technologies--
iPads, you know, what are you going to put on your iPad. Let's 
get some programs that are very well identified and researched 
and evidence-based to provide to some of these younger 
children.
    Ms. Edwards. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentlewoman from Virginia, Mrs. Comstock, is 
recognized.
    Mrs. Comstock. Thank you, Mr. Chairman, and thank you. I 
join the enthusiastic response of the other Members of the 
Committee.
    I'm from a family of educators. My husband was in school. 
He was an assistant principal, certainly saw this issue quite a 
bit oftentimes with the children who might be, since he was the 
assistant principal, some of the kids who would get in trouble, 
right because acting out in some ways. My sister's a guidance 
counselor. My mom was a librarian. So I've seen a lot.
    I was interested in following up on the technology now that 
I have three grandchildren also. How can we make parents sort 
of be partners and what are some of the good things that are 
already online? Are there things on iPads? Are there things 
that you can start doing with young children that help you 
identify if there are early problems and help the parents be 
partners with you and with others, you know, and their 
contemporaries?
    Dr. Tallal. Well, we have actually come out with a distance 
learning component, as you might call it, speaking to Mr. 
Palmer's question earlier, that is a direct--it's Fast ForWord 
that is run by parents in their own home with children across 
the many ages in collaboration with a trained therapist who 
talks to--or teacher that talks to the parents once a week. So 
there's a lot that parents can do to use these technologies.
    But the beauty is that they don't have to have the 
educational level of a trained professional to be able to 
implement. What parents can do is implement something when it's 
really running individually and individually adapted for a 
child and just keep them motivated to do it and help with 
reinforcement that way. So there's a lot that parents can do 
with these technologies.
    We also have kind of forayed a little bit into early math 
learning and developed a program called Eddie's Number Party, 
which is just a little app, and it teaches the number line. So 
research is coming out with all this information as is 
education, and the question is, how do you work together with 
the people who know how to motivate kids now through developing 
computer games to do something with their time which is more 
valuable, and I think that's a great way also to focus in the 
future of how do we make what kids are going to be doing and 
wanting to do anyway--playing with these computers--something 
that could actually teach them the fundamental skills that are 
going to set them up early in life for success in math, in oral 
language, in written language, et cetera.
    Mrs. Comstock. And with the online and then also maybe in--
you talked about the language exposure and having kids exposed 
to more words, things like that, I hear from my kids now when 
they're dealing--having their children, they won't put them in 
front of television. I was a big Sesame Street lover. I did 
park them in front of that at the arsenic hour at four o'clock 
and let them watch, and they were all very early readers. I 
thought that Sesame Street did a very nice job on the alphabet 
and having them understand that. But now they're oh, we can't 
let them in front of the TV before they're 2 years old. Is that 
true? Did I totally mess up my early reading children?
    Dr. Tallal. Well, there's a difference, I think. I think 
the question is interactivity between adults and children. In 
the best of situations, the very best thing you can do is have 
parents who are talking to children and reading with children 
in a clear, consistent way, but that's not going to happen in 
most environments.
    So then what else can you do? Passive observation does not 
work to drive neuroplasticity. That's one of the factors that 
we do know. You have to actively pay attention. So if a child 
is actively paying attention to what's going on on an 
educational program like Sesame Street, it's going to be 
helpful, but if they're just passively listening, it probably 
isn't.
    Where computers again can be better than that is that they 
can provide similar information but give one-on-one 
individually real-time feedback so it's much more interactive. 
It much more closely simulates the parent-child or teacher-
child interactions in real time, and that's the clue, in real 
time and personally individually adapted to your brain so 
you're moving at the speed that your brain is getting about 80 
percent correct.
    Mrs. Comstock. Any other comments from the others?
    Dr. Robillard. I think the assistance technology pace is 
key, and we have an assistive technology person that's on our 
staff that goes out and works with our students as they get 
explicit instruction to start, and then as they're getting 
better at reading, we use more and more assistive technology, 
not only for their reading but for their writing, which is 
dysgraphia is really connected to this reading, this issue of 
dyslexia, and so we find that man of our students who are 
dyslexic or dysgraphic as well, and there's wonderful apps for 
that and wonderful assistive technology applications for that.
    The University of Edinboro actually has some great apps 
that we put on our kids' iPads that help them out in schools 
with dyslexia and dysgraphia and decoding and incoding and 
immediate feedback sorts of things and helps them with their 
writing as well.
    So I think assistive technology, the explicit multisensory 
systematic sequential teaching, the Orton-Gillingham method, I 
think is always going to be inherent in helping our dyslexic 
kids get to that place where they can read but the technology 
of the repetition that they need in order to build those new 
neural pathways that are more successful for reading than the 
ones that they came to us with I think is really key.
    Mrs. Comstock. And I wanted to ask the Chairman if for our 
record we can maybe include a lot of those apps and Web sites 
and anything that you think might be good just sort of as a 
demonstration so we can sort of put them on our Web sites, let 
people know about them and any way we can be promoting this 
information and help them, and thank you a lot and look forward 
to working with you.
    Chairman Smith. Good idea. Thank you, Mrs. Comstock.
    And the gentleman from Virginia, Mr. Beyer, is recognized 
for his questions.
    Mr. Beyer. Thank you, Mr. Chairman.
    I'd like to begin by thanking the Chairman and the Ranking 
Member for having this hearing this morning, and Chairman, 
thank you for your leadership on this issue. It's very 
important. And I'd like to thank you for showing up. I want to 
pile on assistive technology too.
    My oldest has this wide variety of learning disabilities, 
and in fourth grade he could still not read at all until I 
brought a PC home with Sierra Games, which were text-based, and 
you could only get through the adventure if you could type and 
spell the words correctly, and in six months, he went from 
barely being able to read to reading on grade level, and now 
he's got a townhouse full of books. So it's really terrific 
stuff to do that.
    Dr. Robillard, in your written testimony, you said--and 
probably you've spoken to--that ``Dyslexia is not a disorder 
that can be compartmentalized; it is not just a deficit, but 
carries with it inherent strengths that have been recognized 
for decades.''
    In his school, the Oakwood School out in Fairfax, they had 
big pictures of Albert Einstein, Thomas Edison, Winston 
Churchill, and the most fiery political speaker I've ever known 
who was Majority Leader of the Virginia House who never had a 
note because he couldn't read them because his learning 
disabilities were so bad. But he was an incredible orator.
    How do we make sure that these strengths, these inherent 
strengths, are not suppressed? How do we recognize them and 
celebrate them?
    Dr. Robillard. Well, I think we have to really do that 
piece, that part that we're teaching our teachers to recognize 
this. Our universities--and I have to say, I've been a part of 
our universities that have not taught our pre-service teachers 
about dyslexia as well we should have. We fortunately in Texas 
now have since House Bill 5 a little piece in there that says 
all higher-education entities that are training teachers will 
teach about dyslexia now, and we're starting to do that. I 
think that getting at that basic level of making sure all 
educators, all administrators recognize that just because a 
student has dyslexia, that they are still able to do so many 
other things and they are so capable in so many other areas 
that contribute to their non-dyslexic counterparts that may not 
be able to see the world or understand the world as well as 
they can in other ways I think is really key in making that 
happen.
    And I think it's an education from the ground up. It's not 
just our teachers but our principals, our assistant principals 
who are often disciplining these kids because they often have 
creative ways of thinking about doing things. I think that our 
administrators really need to understand it as well, and that's 
been a grassroots effort in our district to help our 
administrators understand that.
    Mr. Beyer. Thank you very much.
    Dr. Tallal, the READ Act provides a definition for dyslexia 
that captures everyone who has difficulty reading despite 
normal intelligence, and again, I think of my son, who never 
had the reverse letters dyslexia. It was soft vowel 
differentiation, sequencing difficulties, specific word recall. 
It was always that red stuff in the refrigerator rather than 
ketchup, you know.
    How broadly or narrowly should we define dyslexia, and does 
it matter in terms of intervention?
    Dr. Tallal. That's an excellent question. The research I 
think primarily by Martha Denckla and many other well-
established and well-respected dyslexia researchers have shown 
despite tremendous research and study that there seems to be no 
difference between children who have a frank diagnosis of 
dyslexia and those who for research purposes are called garden-
variety poor readers. So there's no difference in their 
symptomatology and, importantly, there does not seem to be a 
great difference or any difference that we can discern about 
what works to improve their outcomes.
    One of the things that is often used in definitions of 
dyslexia is that children have failed to learn to read despite 
normal intelligence and opportunity to learn to read, and 
that's an important statement as well, but there usually is a 
word that says unexpected reading problems, and what concerns 
me about that is that if a child comes from a high 
socioeconomic family of successful people and they are failing 
to learn to read, that's quite unexpected. But if a child is 
coming from poverty or from family that doesn't have English as 
their primary language and that child fails to learn to read, 
people aren't that surprised. Well, the truth is that even 
though they got to their reading problem in very different ways 
along different avenues, they all seem to need the same kind of 
intensive repetition at the auditory-process and spoken-
language level to break the code for reading.
    So if we want to use a definition of dyslexia, I think 
there is value to bringing attention to the fact that there's 
so many children failing to learn to read. But it also can have 
the effect of limiting the school's sense of responsibility for 
children who don't have a frank diagnosis, and you may want to 
speak to that.
    Dr. Robillard. And we run a camp in the summer for high 
school kids who are still struggling readers. We have now also 
interjected all of our English-language learners who have some 
capacity for English, and we're finding that our dyslexic 
students have the opportunity to help these kids learn to read 
as well and that they are benefiting from the same 
methodology--the same repetition, the same assistive 
technology--and are moving ahead and reading much quicker than 
their counterparts who are English-language learners who don't 
come to the summer program. Furthermore, in six weeks, we have 
statistically measurable differences in their fluency and their 
comprehension scores.
    Mr. Beyer. Thank you.
    Thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Beyer.
    Let me recognize myself for a final quick question to Dr. 
Robillard.
    One area we haven't covered today is the possibility and 
connection between adults with dyslexia and adults that had 
behavioral problems, and I know you've been aware of some 
research at the University of Texas about that. Can you comment 
real quickly on anything we need to address or anything we need 
to know? And then we'll finish up.
    Dr. Robillard. Well, I think it's significant that we have 
this school-to-prison pipeline that is full of dyslexic 
students who are either undiagnosed or misdiagnosed or just 
struggling readers even who are misdiagnosed or undiagnosed, 
and the research about ten years ago, in 2004, I believe, Dr. 
Falbo at UT did quite a bit of research on this population and 
found about 80 percent of our prisons in Texas had prisoners 
who had dyslexia or some form of reading disorder.
    Recently this summer, in July of this year, current year, 
new research came out, similar research, says 85 percent of our 
prisoners have dyslexia or related disorder. That is a huge, 
huge number of people.
    Chairman Smith. And the logical conclusion is, if we could 
have helped them earlier, we may not have had the kind of 
problems that they've exemplified later in life.
    Dr. Robillard. I think there is a correlation. I don't know 
that we can say it's a cause and effect but I think there's a 
very high correlation.
    Chairman Smith. Thanks for that answer.
    Also, let me thank you all for your testimony today. This 
has been very, very informative.
    I have to end with a little bit of a plug for the State of 
Texas because I think we're a little bit ahead of the curve or 
we're certainly ahead of a number of other states because of 
legislation that has been passed, and we mandate the 
recognition of dyslexia in our school districts and mandate 
that the school districts have a program of early detection, 
and I only wish all school districts across the country had 
that as well.
    So again, thank you. Just a reminder, the reception is down 
the hall this way to my left at the very end of the hall. I 
look forward to seeing you all there.
    And we stand adjourned.
    [Whereupon, at 11:36 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




              Letter submitted by Chairman Lamar S. Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Supplemental Testimony submitted by Ms. Barbara Wilson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Document submitted by Ms. Barbara Wilson



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  Slides submitted by Dr. Paula Tallal
                  
                  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                  
                  
                  
                  
                  


       Document submitted by Ranking Member Eddie Bernice Johnson


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Prepared statement submitted by Elizabeth H. Esty

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
